<html>
<title> - NATIVE AMERICAN CONNECTIVITY ACT</title>
<body><pre>[Senate Hearing 108-592]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-592

                    NATIVE AMERICAN CONNECTIVITY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2382

 TO ESTABLISH GRANT PROGRAMS FOR THE DEVELOPMENT OF TELECOMMUNICATIONS 
                      CAPACITIES IN INDIAN COUNTRY

                               __________

                              MAY 20, 2004
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
93-934                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 2382, text of.................................................     2
Statements:
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Williams, J.D., telecommunications subcommittee chair, 
      National Congress of American Indians......................    18
    Twist, Kade L., vice president, Native Networking Policy 
      Center.....................................................    21

                                Appendix

Prepared statements:
    Stensgar, Ernest L., president, Affiliated Tribes of 
      Northwest Indians..........................................    31
    Twist, Kade L................................................    32
    Williams, J.D................................................    37

 
                    NATIVE AMERICAN CONNECTIVITY ACT

                              ----------                              


                         THURSDAY, MAY 20, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:23 a.m. in 
room 485, Russell Senate Building, Hon. Daniel K. Inouye (vice 
chairman of the committee) presiding.
    Present: Senator Inouye.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The committee meets this morning to receive 
testimony on S. 2382, the Native American Connectivity Act. The 
bill would provide support in the form of grants to tribal 
governments for the development of the necessary 
telecommunications infrastructure so that Native communities 
can have access to basic telephone service, the Internet, to 
broadband, and wireless technology.
    The Federal Communications Commission estimates, based on 
the 2000 Census data, that on average only 67.9 percent of 
Indian households on tribal reservations have telephone 
service. That data also indicates that while telephone 
penetration rates vary from State to State, only 49.9 percent 
of Indian reservation households in Arizona have telephone 
service. Even on reservations or Indian trust lands, non-Indian 
homes are more likely to have telephone service than Indian 
homes.
    Only 10 percent of American Indian households on tribal 
lands have access to the Internet, and only 17 percent of the 
tribal governments across the Nation have developed 
comprehensive technology plans.
    A technology infrastructure study conducted 1 year before 
the 2000 census by the Economic Development Administration 
found that only 39 percent of rural Indian households had 
computers, compared with 42 percent nationally and 8 percent of 
Indian households had access to the Internet, compared with 15 
percent nationally.
    So these are the conditions that this bill seeks to address 
by providing the much-needed support to tribal governments that 
will enable them to bring their citizens and other residents of 
their communities into the 21st century.
    [Text of S. 2382 follows:]
      
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inouye. Some of the witnesses scheduled to present 
testimony to the committee are not able to be with us today, 
but we have the benefit of the presence of two very 
knowledgeable gentlemen who have worked extensively in Indian 
country on these issues, and we look forward to receiving their 
testimony.
    We are most privileged to have with us J.D. Williams, 
telecommunications subcommittee chair, of the National Congress 
of American Indians in Washington, DC; and Kade L. Twist, vice 
president, Native Networking Policy Center in Reston, VA. J.D. 
Williams and Mr. Twist.
    Mr. Williams? There is another person called J.D. Williams, 
you know that, don't you, in Washington?
    Mr.  Williams. Yes; he is famous. I am infamous.
    Senator Inouye. He makes a lot of money.
    Mr. Williams. I do not.

  STATEMENT OF J.D. WILLIAMS, TELECOMMUNICATIONS SUBCOMMITTEE 
             CHAIR, NATIONAL CONGRESS OF AMERICAN 
                            INDIANS.

    Mr. Williams. Vice Chairman Inouye and committee members, I 
thank you for this opportunity to testify on the Native 
American Connectivity Act, a measure that seeks to address a 
range of critical telecommunication issues impacting tribes. 
President Tex Hall sends his regards to the committee and 
regrets being unable to join you today to discuss this 
important matter.
    As the chair of the National Congress of American Indians 
Telecommunications Subcommittee, as well as the general manager 
of the Cheyenne River Sioux Tribe Telephone Authority, the 
oldest tribally owned telephone company in the United States 
that began in 1958, I am pleased with the advances in 
telecommunication infrastructure and education that this bill 
proposes. NCAI strongly supports this measure and we look 
forward to working with the committee as it moves to advance 
this bill to passage in the 108th Congress.
    Not only is a strong telecommunications infrastructure 
vital to the effective functioning of our economies and 
governments, it also serves an invaluable tool for education 
and training of tribal members, a blessing for our infirm or 
elderly who are now or who will be able to receive medical care 
through telemedical services and a critical component in 
efforts to preserve our cultures and languages.
    This bill will enable tribes to use its programs to improve 
access to all these critical tools and more. Examples abound 
throughout Indian country of tribes who have prioritized the 
development of a sound telecommunication infrastructure. Those 
same tribes generally are among the most successful at carrying 
out diversified development of all kinds within their 
communities.
    It is no question that high telephone penetration rates and 
easier access to the Internet are hallmarks of healthy 
economies. Most businesses today see high-speed Internet 
access, flexible telecommunication technology, and 
technologically skilled employees as absolute necessities. Some 
reservations have one or two of these key commodities in place, 
but most have none.
    We must be able to provide these services in order to 
attract a diverse array of businesses to Indian country and we 
must have these services if businesses in Indian country are to 
achieve long-term success.
    Education and training of our tribal members are essential 
ingredients to successful development. We must not only train 
them to be proficient in information technology-related fields, 
we must also fine ways to provide tribal members will skills 
for success in all sectors of tribal government and economies. 
E-training and distance learning are tailor-made for the unique 
rural needs of our communities. We have needs for skills 
training and continuing education, and most of us live in these 
rural communities removed from education centers.
    Technology to access teachers and trainers over the 
Internet is a critical tool to provide our members the 
opportunity to learn the skills they need to find productive 
employment. The same technology can also provide us with an 
avenue to increase dramatically the health and quality of 
health care for our people. Telemedicine is a fast developing 
arena of information technology that is particularly suited to 
meeting the needs of our remote and underserved reservations.
    Ailing tribal members often cannot make the long trips to 
IHS clinics or other health care facilities far from their 
homes. The price of gas on the Cheyenne River Reservation, I 
just bought some yesterday, $2.06; folks from the east and west 
end of the reservation have up to 90 miles to travel to the 
only health facility on the reservation and most of those folks 
just cannot afford the higher price of transportation, so 
telemedicine is a good, viable alternative for us as things 
change every day.
    Small communities if they were provided with the 
infrastructure and resources to implement such a program could 
set up a tele-clinic where health professionals could address 
patients and provide initial examinations over video-
conference. These services have proven to be very effective for 
Indian country where currently available. National Public Radio 
documented its success in a report of October last year, noting 
how both doctors and patients find it far more effective than 
infrequent doctor trips to the reservation or costly and 
difficult trips from reservation to urban areas. I am happy to 
see telemedicine as one of the goals of this legislation.
    IT is also rapidly becoming indispensable in the area of 
protecting our sacred rites and retaining our native languages. 
The Alaska Native Language Center, the Choctaw Nation of 
Oklahoma, the Cherokee Nation of Oklahoma, Fort Peck Community 
College and others provide online resources or even online 
instruction for students in their native languages. After 
generation of declining use of native languages, a vital tie to 
our traditional culture, we are bringing together our elders 
and our youth online to keep our languages alive.
    Vital tools for protecting sacred sites are also becoming 
increasingly reliant on IT. One example is the FCC's tower 
construction notification system, an all-online tool to give 
tribes information about proposed construction to cell phone 
towers to determine if they are a threat to sacred or 
culturally significant sites. This system not only prevents 
destruction of our sites, but it also gives the cell tower 
industry a simple and efficient way to fulfill 106 of the 
Historic Preservation Act.
    These are only a few examples of the many ways that 
increased access to resources for development of 
telecommunications infrastructures such as those proposed in 
this measure can help our communities in a very tangible 
manner. S. 2382 proposes to set up two grant programs: block 
grants for a wide range of telecommunication-related 
activities; and training and technical assistance grants for 
employee training and student programs, funded at $20 million 
for the first year. Eligible entities for the funding are 
broad-based as well to ensure that tribes, tribal colleges and 
other entities can all work together to deliver the benefits of 
this measure to tribal members.
    The status of tribal telecommunications infrastructure 
varies widely across the Nation. Some tribes include vast areas 
within their jurisdiction that lack basic telephone service or 
are struggling to keep the basic service they have. Other 
tribes are providing their members with high-speed Internet 
services, wireless phones, and are exploring next-generation 
telecommunication technologies. The vast majority of tribes 
fall somewhere in-between and are thinking about how they best 
make the next step forward, improved connectivity.
    There is clearly no panacea for meeting the 
telecommunication needs of the tribes. Only focused resources 
with flexibility to meet the unique needs of the individual 
tribes can begin to address this dial tone and digital divide 
in Indian country. With 12 different eligible activities plus 
training, and the flexibility to enable any type of tribal 
government institution, organization, or its partner to use 
these funds, tribes will be able to effectively use their block 
grants to meet the unique needs of their members under this 
measure.
    This bill would allow eligible entities to use funds to 
increase tribal capacity to exercise regulatory authority by 
issuing their own telecommunication regulations and codes. 
Through this governmental function, tribes are not only 
delineating their expectations of how service should be focused 
or should be provided on their reservations, but they are also 
exercising their sovereign right to manage affairs of their own 
lands.
    As you know, the Cheyenne River Telephone Authority is the 
first tribal communication company. We have found that we are 
by far the most capable provider on our reservation. We hope 
that other tribes take advantage of the programs that this bill 
envisions to create their own companies that exercise an 
important aspect of sovereignty in the 21st century.
    The ability of tribes to self-determine the best course of 
action for utilizing the funds would be authorized under the 
legislation, coupled with adequate enacted funding levels, are 
vital to the success of this bill. Tribes will be eager to 
access these funds, so funding should be certainly set at the 
level of $20 million at a minimum, and all eligible activities 
should be preserved as this bill moves forward.
    Thank you.
    [Prepared statement of Mr. Williams appears in appendix.]
    Senator Inouye. Thank you very much.
    May I call on Mr. Twist, please?

 STATEMENT OF KADE L. TWIST, VICE PRESIDENT, NATIVE NETWORKING 
                         POLICY CENTER

    Mr. Twist. Vice Chairman Inouye, thank you for inviting me 
here to testify before the committee about the Native American 
Connectivity Act.
    My name is Kade Twist. I am an enrolled member of the 
Cherokee Nation and vice president of the Native Networking 
Policy Center. The Native Networking Policy Center is a 
nonprofit organization whose mission is to ensure equitable and 
affordable access to and any culturally appropriate use of 
telecommunications and information technologies throughout 
Indian country.
    The concepts of the connectivity, access and diversity 
among public telecommunications systems are essential elements 
of the 1934 Communications Act and the 1996 Act are still in 
the year 2004 redlined around most of Indian country. It is an 
oppressive and offensive picture that raises a number of 
critical social justice issues. It is a picture that raises 
serious questions about the public interest priorities of this 
great Nation. It is also a picture that raises serious 
questions about the Federal Government's commitment to 
upholding its trust responsibility for American Indian people 
in the area of communications.
    Therefore, the Native Networking Policy Center applauds 
your attempt to remedy the gross telecommunications and 
information technology deficiencies of Indian country through 
this proposed legislation.
    The Native Networking Policy Center contends that the 
Native American Connectivity Act represents a viable and 
intelligent solution. The bill's strongest attribute is that it 
would provide a flexible block grant funding mechanism that 
emphasizes local community control over how funds are utilized; 
supports technology planning, market studies and feasibility 
studies; supports training, technical assistance, capacity-
building activities; and supports research and evaluation.
    Notably, it is also significant in that it would not, and I 
emphasize the fact, would not require tribes to compete against 
State and municipal entities to gain access to the benefits of 
the federal trust responsibility in the area of 
telecommunications and information technology. It is also 
significant that it would make investments in both sides of the 
technology equation in Indian country, the infrastructure side 
and the human side.
    Providing equipment and infrastructure is not a solution in 
and of itself for the vast telecommunications and information 
technology needs of tribes and American Indian communities. 
Equipment and infrastructure are merely tools. They are only 
effective when they are applied for in a manner that provides 
for and advances the social, civic and cultural needs of the 
respective tribes and Indian communities.
    There are already a number of Federal programs that have 
been helpful in improving the status of telecommunications in 
Indian country. I would like to emphasize the importance of 
universal service. Universal service is essential to ensuring 
the affordability of telecommunications services today and it 
should be protected and grown in the future. However, universal 
service is not a silver bullet.
    I would also like to emphasize the fact that the National 
Telecommunications and Information Administration's Technology 
Opportunity Program, the Department of Education's Community 
Technology Center Program and the Department of Agriculture's 
Rural Utilities Service Broadband Technology Grant and Distance 
Learning and Telemedicine Programs, all of these programs have 
been beneficial. However, I would like to point out that only a 
very small minority of tribes have received funding from these 
programs due to their highly competitive nature and their 
limited budgets.
    I would also like to emphasize the point that these 
programs do not address one of the most significant barriers to 
telecom and IT development. That is the lack of local community 
knowledge and capacity. Their emphasis is on infrastructure, 
rather than the appropriate balance of both infrastructure and 
training and technical assistance. While helpful, it is clear 
that these programs individually and collectively have been 
insufficient.
    So what are the benefits of the Native American 
Connectivity Act and why is it needed? The first and most 
important point is the idea and the concept of local control 
over how funds are utilized. It is crucial for the advancement 
of tribal sovereignty and the concept of self- determination 
that tribes control how funds are utilized for the development 
of telecommunications IT in their respective communities. There 
is no better steward of the public interest in Indian country 
than the tribes themselves.
    Existing Federal programs place external limits on tribal 
and American Indian community decisionmaking. The Federal 
Government rather than tribal governments prescribes the 
priorities for the use of funds from these programs. The 
effectiveness of existing programs is therefore structurally 
limited because they are not designed or administered with the 
specific needs of tribes and American Indian communities in 
mind.
    The Native American Connectivity Act would enable tribes to 
better determine their technology destinies. It would promote a 
higher level of tribal involvement in the conceptualizing of 
telecommunications and IT development. It would also allow 
tribes the flexibility they need to develop infrastructure in a 
more comprehensive manner that best connects tribal entities 
with tribal communities.
    The second point is technology planning, market studies and 
feasibility studies. Given that only 17 percent of all tribes 
have technology or telecommunications plans in place, this is 
an area of crisis that needs to be addressed and addressed 
specifically. Appropriate and sustainable telecommunications 
development cannot take place without sufficient planning. Yet, 
current Federal programs do not, and I emphasize do not, 
provide support for planning needs.
    The Native American Connectivity Act would support planning 
activities for community-wide planning processes that leverage 
resources, aggregate demand for services and infrastructure, 
and promote interagency collaboration, as well as collaboration 
among other tribes, nonprofits and the private sector.
    It would also support planning efforts necessary for 
establishing tribal telephone companies, Internet service 
providers, regulatory authorities, and codes; and planning 
efforts to connect technology investment strategies to larger 
tribal economic development strategies aimed at expanding 
opportunities enabled by new technologies.
    The third point is the idea of training, technical 
assistance and capacity-building. American Indian communities 
need access to technical assistance resources to build the 
community knowledge, expertise and capacities that will enable 
them to utilize these technologies effectively. A system of 
training and technical assistance intermediaries is needed to 
provide support that is specifically designed for the telecom 
and IT needs of American Indian communities. Unfortunately at 
this time, no such system of training and technical assistance 
exists. No current federal program supports this type of 
activity.
    The Native American Connectivity Act would support the 
development of a system of training and technical assistance 
intermediaries for telecommunications and information 
technology. It would enable tribes and Indian communities to 
access an exceptional group of institutions with extensive 
capacity, stability and credibility in their communities. It 
would assist tribes in their efforts to establish telephone 
companies, Internet service providers, regulatory authorities, 
as well as develop and maintain infrastructure.
    It would also promote intertribal collaboration and peer-
to-peer mentoring for addressing some of the more complex 
challenges such as technology planning, technology selection, 
network design, network administration, and selecting content 
applications that increase the relevancy of technology among 
communities.
    The fourth point is research and evaluation. Existing 
Federal programs simply do not provide resources for research 
and evaluation. As a result, there is a lack of accurate data 
that prevents tribal leaders from adequately measuring the 
severity of their telecommunications and information technology 
deficiencies, and thus limits their ability to make decisions 
that will effectively reverse these deficiencies.
    Having access to quality data is crucial for future 
telecommunications development. Making such data available 
dramatically increases the potential for attracting private 
investment and forging partnerships with private enterprise. 
Quality data also enables tribal communities to map their 
telecommunications assets and aggregate telecommunications 
service demand, which are critical processes to providing the 
private sector with a good business case for future investment.
    There also needs to be more research and analysis of 
technology development processes such as tribal collaboration, 
community planning, demand aggregation, attaining rights of 
ways, establishing tribal telecommunications companies, and 
setting up telecommunications regulatory bodies. Best practices 
for these processes need to be identified and analyzed as a 
means of promoting the most effective, efficient and affordable 
means for deploying new technology infrastructure.
    There is also a tremendous need for resources for tribes to 
perform market studies and feasibility studies and related 
research for developing telephone companies, because again 
tribes are the best stewards of their public interest, and 
oftentimes tribes do provide the best communication services to 
their people because they do know how to best meet their needs.
    My final point is an emphasis on no competition against 
State and municipal entities. Tribes in American Indian 
communities should not have to compete against State and 
municipal entities to gain access to the benefits of the 
Federal trust responsibility in the area of telecommunications 
and information technology. I cannot emphasize this point 
enough. Currently, tribes and American Indian communities have 
to compete against thousands and thousands of applicants for 
funding for the Technology Opportunities Program, the CTC 
Center Program, the Broadband Technology Grant and Distance 
Learning and Telemedicine Programs.
    Due to the highly competitive nature of these programs and 
their overly complicated and expensive application 
requirements, for instance, the broadband technology grant, 
tribes typically have to pay between $50,000 to $200,000 just 
to apply for this grant, for the expertise and pre-development 
planning that goes into that application process. It is 
incredibly expensive and prevents 99 percent of the tribes from 
even being able to apply or think about applying for that 
grant. These application requirements eliminate these funding 
opportunities. So for most tribes, they may as well not exist.
    The Native American Connectivity Act would remedy much of 
this problem. It would still award grants on a competitive 
basis, but competition would be among tribes on a much more 
appropriate playing field. In addition, the programmatic 
priorities by which grants are awarded would be more specific 
and more relative to the actual needs of tribes and American 
Indian communities.
    In conclusion, I urge the committee to take the necessary 
steps to ensure that the Native American Connectivity Act is 
enacted. The Native American Connectivity Act is unique in that 
it provides assistance for both telecommunications development 
and knowledge and capacity-building. Indian Country stands to 
benefit most from the investment in equipment and 
infrastructure that is matched with an investment in its 
people.
    Thank you very much.
    [Prepared statement of Mr. Twist appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Twist.
    We did some research and we note that the President has not 
requested appropriations for the Technology Opportunities 
Program or the Community Technology Center or the Agricultural 
Technology Assistance Program. In making this decision, I do 
not know what happened, but he just cited national statistics. 
But if he had cited housing statistics in Indian country, he 
would have found that these programs are necessary.
    Recently, Governor Ridge of the Homeland Security 
Department announced that he has established within the United 
States in all 50 States and territories a global communications 
system in which officials in different jurisdictions can 
communicate with each other, and a national warning can be 
issued from one command to all jurisdictions. Is there any 
infrastructure in Indian country that can participate in this 
national global system?
    Mr. Twist. Let me defer to J.D. first.
    Mr. Williams. There are certain areas on the reservation 
that have excellent telecommunication infrastructure, including 
broadband capability which the Homeland Security plan will 
utilize that. But a majority of those, as you have cited 
earlier, we are talking about the problem of connectivity, dial 
tone even existing. So the forgotten American or the forgotten 
lands still remain the same in those areas. When we hear 
discussion about the Homeland Security, there is the big 
assumption that we are 98 percent or 95 percent penetration 
with adequate broadband telecommunication infrastructure 
throughout America. That is just not true.
    We from NCAI and Indian tribes are very concerned about 
being left out due to the first responder requirements and 
needs on the Indian lands.
    Senator Inouye. We know that many of the reservations in 
Indian country are located along our international borders. Do 
you have any statistics on type of infrastructures now 
available in Indian Country that I can share with the Homeland 
Security people and tell them we have to do something about 
this?
    Mr. Twist. I think at this point one of the major problems 
that we are facing is that we do not have a comprehensive 
assessment of infrastructure on a tribe-by-tribe basis. There 
are regional assessments that have been performed and 
individual tribes that do have the resources, have performed 
those assessments. The Navajo Nation for example, has performed 
a reservation-wide assessment of its infrastructure.
    But I think it would be more advantageous for you to 
perhaps invite maybe the chief information officers of 
strategically positioned tribes like the Tohono O'Odham Nation 
that has a 78-mile international boundary that runs across 
their nation. I know for a fact, even though they do have a 
tribally owned telephone company in place, they do not have the 
capacity at all to manage a crisis situation. Every day, drugs 
and humans are illegally smuggled across that border. Who knows 
what else could be smuggled across that border, and they do not 
have the capacity to defend against that.
    Before this hearing, I talked with Ben Standifer who is the 
chief information officer of the Tohono O'Odham Nation. He is 
almost pulling what little hair he has left on his head out 
because of the frustrations and just the lack of resources to 
build that kind of infrastructure capacity that they need.
    They literally just are at their wits end. It is a crisis 
at the Tohono Nation.
    Mr. Williams. The Office of Technology Study done in 1995 
cited 30 to 50 percent penetration rate, and that has been 
upgraded by a study done within the FCC to a 67-percent level. 
I still doubt that that percentage has even been raised that 
high. We, as the oldest tribally owned telephone company, our 
penetration rate is right at about 80 percent and we have been 
in the business a long time. When you have 80 percent 
unemployment, the poorest county in South Dakota and seventh 
poorest in the United States, even when that infrastructure 
runs by the home or is in that home, they cannot afford 
technology. It is just not allowed because of their limited 
budget.
    So therefore, when you do use that number 67 percent that 
is most recent and we have seen all the studies by the FCC, it 
is not the same as the 95 to 98 percent that is across America. 
There is a great difference of just dial tone being in those 
homes, if that exists, versus high-speed Internet and the 
capabilities of a home.
    I find it very interesting living in this area, and 
President Bush touts No Child Left Behind, when we do not have 
the infrastructure or the capability to afford that 
infrastructure, there are a lot of folks, including the adults, 
that are left behind because we do not have access as other 
folks do in the United States.
    Senator Inouye. Now, both of you have referred to tele-
health and telemedicine. I know that in Alaska, there are 
telemedicine projects and that they are currently available out 
in Native villages. Do you know where there are telemedicine or 
tele-health capacities in Indian country in the lower 48 
States?
    Mr. Williams. Within our own reservation, we have 
telemedicine offered at an IHS facility, as well as our 
community health program that is a public organization, and 
service comes out of a place called Med Center One in Bismarck, 
ND. But that all comes from the fact that we are a very 
established telephone company with fiber-optic capability that 
allows that speed of video. We also have fiber redundancy, but 
that is from the high end of the spectrum of tribal telephone 
company.
    Kade, do you have any?
    Mr. Twist. Well, one interesting example, I think, is the 
rural Arizona Telemedicine Network. It was established in the 
late 1990's. They invited tribal participation, but in a very 
select manner, meaning they did not make it public information 
necessarily. They did not advertise. They did not approach 
tribal leaders and invite them personally. They just sort of 
interoffice memos that eventually leaked out to the public or 
however they disseminate their information there.
    Navajo did participate in that and so did Hopi, probably 
because they are very close to Flagstaff where the university 
there, Northern Arizona State University or NSU was one of the 
universities that participated in this network. So it seemed 
like they cherry-picked. The tribes that were located near the 
universities that participated in the network were tribes that 
were invited to participate, and eventually did.
    However, when tribes like the Tohono O'Odham Nation 
attempted to participate in the network, they were prevented 
from doing so. For whatever reasons, they were not provided 
with. But still, the status of telemedicine in Indian country 
in Arizona I know is very insufficient. I would invite you to 
again talk with the CIO Ben Standifer about that at Tohono 
O'Odham because he does have a lot of interesting examples of 
how they have been excluded from those types of State programs.
    Another State program that actually has been very 
successful is in Oklahoma, through the OneNet. But Oklahoma has 
also been ahead in a lot of their technology developments 
because you have tribes located very close to major cities and 
it is much more feasible economically for them to develop that 
kind of infrastructure.
    Still, if you look in rural Washington, rural Northern 
California and Oregon, still telemedicine is an application 
that is spotty at best.
    Senator Inouye. Both of you have mentioned training. Are we 
providing adequate training or funds to set up training 
programs in Indian country?
    Mr. Williams. From my perspective of operating an ongoing 
telephone company, and I have been there since 1982, we have 
seen probably four technology changes and it is happening every 
day as technology races. So there is an extreme need to keep 
employees up to par with that technology change. We probably 
spend, with 50 employees, and they are not all technicians, but 
probably around $40,000 a year in our training, constant 
training. But we have a funding source through an operating 
company to do that. We receive a lot of calls from around the 
tribe and inquiries and find a very small amount of folks, in 
particular young people that come from vo-tech or college 
training or on-the-job training that are located in these 
tribes as MIS directors, computer specialists. But those are 
only a couple, seemingly, in each tribe.
    I just do not think it is adequate because then the whole 
reservation seems to borrow from those few talented people. It 
really is all self-funded, as I see it internally within the 
tribe. Perhaps you will see more of those people come from the 
tribal college entity if they are lucky enough to have a tribal 
college on their reservation.
    Mr. Twist. I would have to say that training, again, is 
very, very spotty. It is best served in communities that have 
tribal colleges. I think the tribal colleges and universities 
through AHEC has supported a national initiative to provide 
technology training. But the vast majority of tribes do not 
have tribal colleges and the vast majority of tribes do not 
have any type of system of training in place.
    Tribes that have been awarded CTC grants, if they have 
chosen to establish training programs through those centers 
established by those grants, the sustainability of those 
programs has been problematic. But this is an issue ironically 
where you need the infrastructure in place to have the training 
in place, because one of the difficulties of sustaining a 
training program is having a critical mass of students. In 
rural and isolated communities, it is hard to develop that 
critical mass to make it feasible to provide training.
    So with distance learning, you can get the critical mass 
and aggregate it nationally so that with one instructor you can 
provide those training sessions, those training classes on a 
national basis from one regional site. That is something that 
is beginning to happen in other areas. A big development 
recently, this year in particular, has been in the area of 
media, of film and video training using tribal TANF dollars. 
The Owens Valley, a career development corporation in 
California, has been using distance learning applications to 
provide film and video training which also incorporates a great 
deal of IT training. You have to know how to use a computer to 
use the final cut pro editing tools to edit a film. So they do 
a lot of remedial computer training and software training. They 
provide it through that distance learning capacity.
    Also the school, DQ University out of Davis, a tribal 
school, tribal college, provides distance learning classes 
through the Intertribal Entertainment Program that the Southern 
California Indian Center has in Los Angeles. So the kids are 
able to get college credit and get training and also produce 
films. That is really the side that we need to look at as well, 
and that perhaps has not been addressed enough is the idea of 
content and applications that promote the development of 
content, because these are the things that make these 
technologies most relevant.
    It also underscores a strategy that I think is essential to 
effective training, and that is outcome-based training 
strategies that are focused on content being one of the 
outcomes, content that reflects our cultures, our identities, 
our goals as communities, things of that nature.
    But these types of exciting training programs are very far 
and few in between, and there is an effort out there. There are 
people out there in Native communities that know what to do, 
know how to do it, and they are searching for the resources to 
make it happen. There are models that exist. It is just a 
matter of how do we get the resources and build out this sort 
of national network for this training and technical assistance.
    Senator Inouye. So at this stage in your development, 
without proper training, without proper equipment, it makes 
very little difference if we open our doors and say come in, 
you are not able to come in. Is that about the proper picture?
    Mr. Twist. I would say precisely. Without the proper 
training and without the appropriate focus on outcomes and 
content, you will not have the relevancy of these technologies, 
and without that relevancy you will not have community demand, 
and without community demand you will not have economic 
feasibility for building out infrastructure. You will not have 
a market case.
    So the training side is very, very important to the 
economic feasibility of our infrastructure development and 
sustaining that infrastructure development.
    Senator Inouye. Can you work with this committee to assure 
that this bill properly addresses the need for training and 
technical assistance?
    Mr. Twist. I would be more than happy to. I think that all 
we have to do is look toward other sectors of tribal 
development, for instance housing. NAHASDA created a system of 
training and technical assistance intermediaries. The National 
American Indian Housing Council is a best-case example of how 
such an intermediary functions on a national level. My thinking 
and the thinking of the Native Networking Policy Center is that 
that type of intermediary is needed for telecommunications and 
IT development as a way of pooling and leveraging resources, 
leveraging planning, coordinating all of these types of 
activities on a national scale and on a regional scale. It also 
involves greater tribal commitment and tribal participation as 
well.
    Mr. Williams. I also think from the National Congress of 
American Indians, that our organization has and is bringing 
together the technology experts within Indian country, and also 
a sense of educating Indian leaders. With the growing problems 
on our reservations as population grows, Federal dollars are in 
a decline, tribal leaders, the plate that they have to deal 
with is so immense and growing that technology usually is a 
last issue to even be talked about. I think the National 
Congress of American Indians would very much like to be a part 
of that plan and be a very focal critical instrument that you 
could rely upon.
    Senator Inouye. Why don't you two get together with 
committee staff and add your thoughts to this process? We will 
draft the bill accordingly. Okay?
    Mr. Williams. Great.
    Mr. Twist. Thank you.
    Senator Inouye. This hearing stands in recess.
    Thank you very much.
    [Whereupon, at 11:10 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]

=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Ernest L. Stensgar President, Affiliated Tribes 
                          of Northwest Indians

    Mr. Chairman and members of the committee, I appreciate the 
opportunity to submit written testimony on behalf of the Affiliated 
Tribes of Northwest Indians in support of the Native American 
Connectivity Act. I would like to address the committee regarding the 
importance of S. 2382, the Native American Connectivity Act. This act 
is important to all people concerned with our Nation's security.
    Tribal leaders have long been concerned with developing reservation 
infrastructure to meet the unique needs of their reservations. In this 
era of Self-Determination, tribes have stepped forward to overcome the 
many challenges we face in order to control our own destinies. In the 
wake of 9-11, it has become glaringly evident that we, as tribal 
leaders, must increase our roles in developing our telecommunications 
systems in order to strengthen the security and safety of our own 
homelands and that of our Nation. As stewards of significant land 
bases, including hundreds of miles of coastal fronts, isolated areas, 
and international borders, it is our duty as well to protect any and 
all infrastructure that crosses through tribal lands.
    While telecommunications systems nationwide are undergoing rapid 
evolution, the availability of advanced telecommunications systems 
beyond plain old telephone service [POTS] is largely non-existent in 
reservation communities. Most tribes are at the mercy of private 
carriers that lack the incentive to invest in reservation communities, 
giving them secondary attention at best. The overall lack of carrier 
investment in telecommunications infrastructure in Indian country not 
only compromises nationwide homeland security efforts, but also serves 
to condemn reservations to insufficient public safety, economic 
stagnation, and poor socio-economic conditions.
    Many tribes are engaged in long-range planning efforts in order to 
effectively harness and manage telecommunication assets for maximum 
public benefit in alignment with their own needs. As major 
stakeholders, tribes hold a deep interest in developing 
telecommunications systems that are adequate enough to support the 
current and future needs of: Tribal Governments, public safety 
personnel [fire/medical/police], medical facilities, educational 
institutes, new development, and reservation communities. In addition, 
telecommunications services must be made affordable and universally 
available.
    Although there are many Federal programs designed to assist in 
these areas, the gaps that exist often hinder tribes from fully 
participating in these programs. For example, the Department of 
Agriculture's Rural Utility Service [RUS] provides financing for 
telecommunications infrastructure. However, tribes often lack the 
upfront capital necessary to cover expenses incurred for pre-
operational activities. This includes engineering, legal research, and 
staffing costs. In addition to the financial hurdles, the lack of 
training and technical assistance also creates barriers in utilizing 
these programs.
    Another example is the Enhanced Lifeline and Linkup program. Under 
current Federal Communications Commission [FCC] rules, 
telecommunications carriers are required to publicize the availability 
of these programs in a manner that will reach those likely to qualify. 
However, carrier efforts to market these programs are minimal, and many 
reservation consumers remain unaware that the programs exist. Tribes 
have often had to rely on their own resources to provide adequate 
outreach to their constituents.
    Until recently, tribes in the Northwest used a regionalized 
approach to market these programs. In this light, the ATNI Economic 
Development Committee developed the Tribal Telephone Outreach program. 
Two tribal outreach advocates were hired to provide training to tribes 
on telecommunications and consumer rights issues. This included 
training on the Lifeline and Linkup Programs for Tribal Lands. This 
program ended in February 2004.
    The Native American Connectivity Act is a positive step forward for 
Indian country. This measure is in alignment with the principles of 
tribal self-governance, and collaboration on homeland security, along 
with the Telecommunications Act. The passage of this measure will 
assist tribes in conducting their needs assessments, to inventory 
existing and projected facilities, and identify shortfalls. It will 
allow tribes to ensure that reservation residents, businesses, and 
tribal entities obtain the telecommunications services and 
infrastructure necessary to thrive in the information age. It will 
enable them to provide adequate public safety, and to improve the 
health, welfare, and socio-economic conditions of their reservations. 
It offers unprecedented potential for cultural and language revival. 
And finally, it will allow tribes to strengthen the security and safety 
of their own homelands, leaving no gaps in our Nation's security. It is 
in this spirit, we urge you to pass the Native American Connectivity 
Act.
                                 ______
                                 

Prepared Statement of Kade L. Twist, Vice President, Native Networking 
                             Policy Center

    Chairman Campbell, Vice Chairman Inouye, and distinguished members 
of the committee, thank you for inviting me to testify before the 
Committee on Indian Affairs about the Native American Connectivity Act. 
It is an honor to be herewith you today. My name is Kade L. Twist. I am 
an enrolled member of the Cherokee Nation and vice president of the 
Native Networking Policy Center. The Native Networking Policy Center 
[NNPC] is a non-profit organization whose mission is to ensure 
equitable and affordable access to, and the culturally appropriate use 
of, telecommunications and information technology throughout Indian 
country.
    Unfortunately, far too many American Indians lack access to basic 
telephone service--let alone advanced telecommunications services--and 
information technology. And far too many tribes and American Indian 
communities lack the knowledge and capacity they need to utilize these 
technologies in a manner that advances their respective social, civic, 
and cultural needs.
    Therefore, NNPC applauds Senator Inouye's and the committee's 
attempt to remedy these appalling deficiencies through the proposed 
Native American Connectivity Act. It is clear that previous attempts to 
promote market-driven solutions to these deficiencies have been 
painfully inadequate in providing a timely remedy and have entirely 
failed to address one of the most significant barriers to 
telecommunications and information technology development: The lack of 
local community knowledge and capacity. It is also clear that existing 
Federal programs that provide funding assistance for the development of 
telecommunications and information technology have been insufficient in 
meeting the diverse and unique needs of tribes and American Indian 
communities, including essential community knowledge and capacity 
issues.
    The NNPC contends that the Native American Connectivity Act 
represents a viable and intelligent solution to the telecommunications 
and information technology deficiencies among tribes and American 
Indian communities. The act's strongest attribute is that it provides a 
flexible block grant funding mechanism that:
    (1)  Emphasizes local community control over how funds are 
utilized, including tribal decisionmaking and community-driven problem 
solving;
    (2)  Supports technology planning, market studies and feasibility 
studies;
    (3)  Supports training, technical assistance, and capacity building 
activities;
    (4) Supports research and evaluation;
    Furthermore, the Native American Connectivity Act is significant in 
that is doesn't require that tribes compete against State and municipal 
entities to gain access to the benefits of the Federal trust 
responsibility in the area of telecommunications and information 
technology.
    The future of American Indian self-determination is largely 
dependent upon the ability of tribes and American Indian communities to 
develop and utilize telecommunications technologies as tools for 
enhancing nation building, civic engagement, economic development, 
education, healthcare, language and cultural preservation, and media. 
Therefore, NNPC contends that the Native American Connectivity Act will 
play an important role in not only improving the status of 
telecommunications in Indian country, but also improving upon the 
future status of American Indian self-determination.

Background: Severity of need

    Infrastructure

    There is a communications crisis in Indian country that is 
undermining the potential for expanding the human, economic and civic 
capacities of Indian Nations and tribal members. More so than any other 
racial or ethnic group in rural America, American Indians lack access 
to telecommunications and information technology infrastructure and 
services.
    The insufficient and unacceptable state of telecommunications and 
information technology in Indian country is well documented in the 
written and verbal testimonies provided by tribal leaders and 
stakeholders in Indian country during the May 22, 2003 hearing. I urge 
you to revisit the public record for more robust background information 
on the severity of the telecommunications and information technology 
infrastructure deficiencies.
    I also urge you to consult three important reports that provide an 
appropriate context from which to evaluate the current communications 
crisis in Indian country. This crisis didn't emerge overnight. And 
these reports provide a useful history of how and why this is the case. 
The three reports are: Telecommunications Technology and Native 
Americans: Opportunities and Challenges, U.S. Congress, Office of 
Technology Assessment, Telecommunications Technology and Native 
Americans--Opportunities and Challenges, OTA-ITC-621, August 1995; U.S. 
Department of Commerce, Economic Development Agency, Assessment of 
Technology Infrastructure in Native Communities, October 1999; Benton 
Foundation, Native Networking: Telecommunications and Information 
Technology in Indian country, April 1999.
    Because so much thoughtful information is already readily 
available, and the focus of much public discourse, I will only provide 
here a brief summary-or, reminder-of these infrastructure-related 
deficiencies:

  <bullet> \\\\\\Household telephone penetration rates for all of 
        Indian country are only 67.9 percent; however, for some tribes, 
        such as the Navajo Nation, it is only 39 
        percent.\1\
---------------------------------------------------------------------------
    \1\ 2000 Census, as compiled by the FCC, 2003.
---------------------------------------------------------------------------
  <bullet> \\\\\\Household Internet penetration rates for all of Indian 
        country are only 10 
        percent.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Commerce, Economic Development Agency, 
Assessment of Technology Infrastructure in Native Communities, October 
1999.
---------------------------------------------------------------------------
  <bullet> \\\\\\Household personal computer penetration rates for all 
        of Indian country are only 15 percent.\3\
---------------------------------------------------------------------------
    \3\ Ibid.

    Instead of rehashing what is already on the public record, I would 
like to add one important issue that is often overlooked in public 
discourse pertaining to the lack of telecommunications and information 
technology infrastructure: SOCIAL JUSTICE.
    The concepts of equity, access and diversity among public 
communications systems--essential elements of the 1934 Communications 
Act and 1996 Act--are still, in the year 2004, redlined around most of 
Indian country. It's an oppressive and offensive picture that raises a 
number of critical social justice issues. It's a picture that raises 
serious questions about the public interest priorities of this great 
nation. It's a picture that raises serious questions about the Federal 
Government's commitment to upholding its trust responsibility for 
American Indian people.
    Without household telephone service. American Indians are dying in 
their homes because they don't have access to 911 services; they are 
unable to attain employment because they don't have a phone; they are 
unable to communicate effectively with their children's teachers or 
elected leaders.
    Without household Internet access American Indians are unable to 
reap the benefits of an e-government democracy; they are unable to 
contribute to the public sphere; they are unable to contribute to the 
diversity and richness of mainstream America through the sharing of 
their stories, experiences, languages and cultures.
Knowledge and Capacity

    Providing equipment and infrastructure is not a solution, in and of 
itself, for the vast telecommunications and information technology 
needs of tribes and American Indian communities. Equipment and 
infrastructure are merely tools. They are only effective when they are 
applied in a manner that provides for--and advances--the social, civic 
and cultural needs of respective tribes and American Indian 
communities.
    Even if every mile of Indian country were wired the vast majority 
of tribes would not have the knowledge, expertise and organizational 
capacity to effectively utilize, manage and sustain their 
infrastructure. For instance, telecommunications systems are expensive 
to sustain and require a large number of staff with wide array of skill 
sets to keep them up and running. It requires a great deal of 
experience, expertise, creativity, community education and community 
organizing to utilize telecommunications systems in a manner that 
compliments the cultural will of tribal people while meeting their 
social and civic needs.
    Therefore, the needs for building organizational capacity and 
planning assistance should be viewed all stakeholders as a top 
priority. Currently, the majority of Indian country does not have the 
organizational capacity or planning resources to expeditiously and 
efficiently build-out needed infrastructure. Likewise, the majority do 
not have the knowledge and capacity to manage and utilize 
infrastructure in a manner that maximizes its full potential. Perhaps 
the best example of this need is the grim statistic that only 17 
percent of tribes have technology infrastructure plans in place, and 
only 17 percent of tribes have telecommunications plans in place. \4\
---------------------------------------------------------------------------
    \4\ U.S. Department of Commerce, Economic Development Agency, 
Assessment of Technology Infrastructure in Native Communities, October 
1999.
---------------------------------------------------------------------------
    Addressing the organizational capacity building and planning 
assistance needs of Indian country is not only essential to building 
out infrastructure, it is also essential to sustaining technology 
investments.
    Stakeholders should be mindful of the fact that Indians have just 
begun the processes of making telecommunications; and information 
technology fit their respective cultural and social wills. Therefore, 
Indian Nations have an intense need for planning, community organizing, 
training, technical assistance, capacity building assistance and the 
recruitment of talent with a diversity of skill-sets. Indian Nations 
must develop their organizational infrastructures, regulatory codes and 
regulatory bodies to ensure the appropriate development and 
sustainability of telecommunications endeavors on tribal lands, as well 
as, ensuring the consumer rights of their respective tribal members.

Benefits of the Native American Connectivity Act and Why it is Needed

    Local control over how funds are utilized

    It is crucial for the advancement of self determination that tribes 
control how funds are utilized for the development of 
telecommunications and information technology within their respective 
communities.
    Existing Federal programs such as the National Telecommunications 
and Information Administration's Technology Opportunities Program [TOP] 
and the U.S. Department of Education's Community Technology Center 
[CTC] Program place external limits on tribal and American Indian 
community decisionmaking. The Federal Government, rather than tribal 
governments, prescribes the priorities for the use of funds from these 
programs. Such prescribed priorities tend to emphasize experimental and 
theoretical approaches to technology development, which is beyond the 
scope of the majority of tribes' technology development priorities.
    In sum, the effectiveness of these programs for Indian country is 
structurally limited because they are not designed or administered with 
the specific needs of tribes and American Indian communities in mind.
    Whereas, the Native American Connectivity Act would utilize a block 
grant program to disperse funds to tribes to be used by tribes as they 
see fit. The Native American Connectivity Act would promote a higher 
level of tribal involvement in the conceptualizing of 
telecommunications and information technology development. In addition, 
the act would promote a higher level of interagency collaboration and 
the leveraging of a more diverse set of interagency resources. It would 
enable tribes to build upon existing infrastructure across interagency 
network platforms in a manner that is more consistent with tribal and 
American Indian community development priorities. And consequently, it 
would allow tribes the flexibility they need to develop infrastructure 
in a more comprehensive manner that better connects tribal entities 
with tribal communities.

Technology planning, market studies and feasibility studies

    Given that only 17 percent of tribes have technology or 
telecommunications plans in place this is an area of crisis that needs 
to be addressed specifically.
    Appropriate and sustainable telecommunications development cannot 
take place without sufficient planning. And the planning needs of 
Indian country are far more significant and complex than simply 
developing a plan for a wireless network, or a community technology 
center. Tribes and American Indian communities need resources for much 
larger, community-wide planning processes that leverage resources, 
aggregate demand for services and infrastructure, and promote 
interagency collaboration, as well as, collaboration among other 
tribes, non-profits and the private sector. Tribes also need resources 
to perform market studies and feasibility studies for developing 
telephone companies and connecting technology investment strategies to 
larger tribal economic development strategies aimed at expanding 
economic opportunities enabled by new technologies.
    It is essential for tribal telecommunications and information 
technology development efforts to be linked with existing education, 
healthcare and economic development efforts. Many tribes have been 
unable to develop such linkages, and as a result, they are duplicating 
efforts, failing to leverage resources and failing develop fully 
integrated systems. Unfortunately, existing Federal programs simply do 
not support sufficient telecommunications and information technology 
planning. As a result, potential efficiencies and market development 
opportunities have been unrealized.
    The Native American Connectivity Act, through its block grant 
program, would support a diversity of necessary planning activities. 
The Native American Connectivity Act would play a significant role in 
providing tribes and American Indian communities with the resources 
they need to not only develop telecommunications and information 
technology more efficiently, but also to utilize these technologies in 
a manner that promotes their social, economic, civic and cultural 
needs.

Training, technical assistance and capacity building

    I would like to reiterate the fact that providing equipment and 
infrastructure is not a solution, in and of itself, for the vast 
telecommunications and information technology needs of tribes and 
American Indian communities. Equipment and infrastructure are. merely 
tools. They are only effective when they are applied in a manner that 
provides for--and advances--the social, civic, and cultural needs of 
respective tribes and American Indian communities.
    With this in mind, tribes and American Indian communities need 
access to training and technical assistance resources to build the 
community knowledge, expertise and capacity that will enable them to 
utilize these technologies effectively. A system of training and 
technical assistance intermediaries is needed to provide support that 
is specifically designed for the telecommunications and information 
technology needs of tribes and American Indian communities.
    Unfortunately, no such system for training and technical assistance 
exists for telecommunications and information technology. Instead, 
tribal and American Indian technology leaders end up flying around the 
country to attend expensive conferences and workshops that are limited 
to a few hours, or maybe 1 day, as a means of gaining access to 
technical assistance and training opportunities. Unfortunately, these 
brief learning opportunities are designed to address the general needs 
of a broad audience, rather than the specific needs of a specific tribe 
or American Indian community. This leaves the majority of tribal and 
American Indian technology leaders scratching their heads wondering 
where and how they can access the type of specific training assistance 
they need.
    As a result, tribes and American Indian communities rely on 
expensive consultants because it is the easiest and most timely means 
of attaining expertise. The reliance upon outside consultants provide a 
temporary fix for a particular need, however, this practice prevents 
tribes and American Indian communities from building their internal 
expertise and capacities and reaping the long-term benefits from doing 
so. It can also be problematic in the sense that consultants come and 
go from project to project and do not necessarily advance the long-term 
best interests of tribes and American Indian communities.
    The Native American Housing Assistance and Self Determination Act 
(NAHASDA) established a system of training and technical assistance 
intermediaries as a means of building the capacity of tribal housing 
authorities. This system of training and technical assistance 
intermediaries has proven to be very beneficial in helping tribal 
housing authorities navigate the complexities of housing development 
and property management activities more efficiently and effectively. 
Unfortunately, no such system of training and technical assistance 
intermediaries exist for tribes and American Indian communities in the 
area of telecommunications and information technology--sectors that are 
far more complicated and expensive than housing.
    The Native American Connectivity Act would support the development 
of a system of training and technical assistance intermediaries for 
telecommunications and information technology. The Native American 
Connectivity Act would enable tribes and American Indian communities to 
access an exceptional group of institutions with extensive capacity, 
stability and credibility in their communities. It would promote 
intertribal collaboration and peer-to-peer mentoring for addressing 
complex challenges such as technology planning, technology selection, 
network design, network administration and selecting content 
applications that increase the relevancy of technology among 
communities. It would promote strategic development, pushing 
participant tribes and American Indian communities to think critically 
about their markets and organizational priorities, gauge their impact 
and evaluate alternatives. And most importantly, it would help tribes 
and American Indian communities build the knowledge, expertise and 
capacity they need to utilize technologies effectively.

Research and evaluation

    There is a tremendous need for a more comprehensive assessment of 
existing communications technology infrastructure and services 
subscribed to in Indian country. Currently, there is a lack of accurate 
data and appropriately contextualized data for telecommunications 
infrastructure, available services and services subscribed to on a 
reservation-by-reservation basis. Data that does exist is either 
outdated, lacks integrity due to small sample sizes and inappropriate 
collection methods, or has not been made available on a reservation-by-
reservation basis.
    The lack of quality data prevents tribal leaders from adequately 
measuring the severity of their telecommunications and information 
technology deficiencies, and thus, limits their ability to make 
decisions that will effectively reverse these deficiencies. The lack of 
data also severely limits the effectiveness in which tribal leaders are 
able to participate in an already limiting Federal decisionmaking 
process.
    Having access to quality data is also crucial for future 
telecommunications development. Making such data available dramatically 
increases the potential for attracting private investment and forging 
partnerships with private enterprise. Quality data enable tribal 
communities to map their telecommunications assets and aggregate 
telecommunications service demand, which are critical processes to 
providing the private sector with a good business case for future 
investment.
    There also needs to be more research and analysis of communications 
technology development processes such as tribal collaboration, 
community planning, demand aggregation, attaining right-of-ways, 
establishing tribal telecommunications companies, setting up 
telecommunications regulatory bodies and codes, etc. Best practices for 
these processes need to be identified and analyzed as a means of 
promoting the, most effective, efficient and affordable means for 
deploying new technology infrastructure. Best practice models enable 
tribal leaders to develop successful strategies for future technology 
development efforts. Furthermore, best practice models can be used to 
inform the development of Federal policies.
    The Native American Connectivity Act would support a wide variety, 
of research and evaluation activities that will enable tribes and 
American Indian communities to measuring the severity of their 
telecommunications and information technology deficiencies; identify 
the most appropriate means to remedy deficiencies; and evaluate the 
progress of telecommunications and information technology development 
efforts.

No competition against state and municipal entities

    Tribes and American Indian communities should not have to compete 
against State and municipal entities to gain access to the benefits of 
the Federal trust responsibility in the area of telecommunications and 
information technology.
    Currently, tribes and American Indian communities have to compete 
against thousands of applicants for funding for the National 
Telecommunications and Information Administration's Technology 
Opportunities Program, the U.S. Department of Education's Community 
Technology Center [CTC] Program and the Department of Agriculture's 
Rural Utilities Service Broadband Technology Grant and Distance 
Learning and Telemedicine and Programs. Due to the highly competitive 
nature of these programs and their overly complicated and expensive 
application requirements the vast majority of tribes and American 
Indian communities miss out on these funding opportunities.
    The Native American Connectivity Act would remedy much of this 
problem. It would still award grants on a competitive basis, but 
competition would be among tribes on a much more even playing field. 
Furthermore, the evaluators of grant proposals would be comprised of 
American Indian leaders who have a better understanding of the 
realities in which tribal governments and American Indian communities 
operate. Not only would tribes and American Indian communities stand a 
better chance of being awarded a grant, since they wouldn't be 
competing against thousands of applicants, their applications would 
also be judged more fairly and less discriminatorily because 
application evaluators would better understand the complexity and 
severity of the needs being addressed. In addition, the programmatic 
priorities by which grants are awarded would be more specific and 
relative to the actual needs of tribes and American Indian communities.
    Moving the Native telecommunications agenda forward is critical, 
since these technologies enable tribes to jump over some of the biggest 
hurdles in developing economic and human potential. Therefore, I urge 
the committee to take the necessary steps to ensure that the Native 
American Connectivity Act is enacted. The Native American Connectivity 
Act is unique in that is provides assistance for both 
telecommunications development and knowledge and capacity building. 
Indian Country stands to benefit most from an investment in equipment 
and infrastructure that is matched with an investment in its people. 
Thank you for providing me the opportunity to testify.
                                 ______
                                 

  Prepared Statement of J.D. Williams, National Congress of American 
             Indians Telecommunications Subcommittee Chair

    Chairman Campbell, Vice Chairman Inouye, and committee members, I 
thank you for this opportunity to testify on the Native American 
Connectivity Act, a measure that seeks to address a range of critical 
telecommunications issues impacting tribes. President Tex Hall sends 
his regards to the Committee, and regrets being unable to join you 
today to discuss this important matter. As the chair of the NCAI 
telecommunication subcommittee, as well as the general manager of the 
Cheyenne River Sioux Tribe Telephone Authority, I am pleased with the 
advances in telecommunications infrastructure and education that this 
bill proposes. NCAI strongly supports this measure, and we look forward 
to working with the Committee as it moves to advance this bill to 
passage in the 108th Congress.
    Not only is a strong telecommunications infrastructure vital to the 
effective functioning of our economies and governments, but it also 
serves as an invaluable tool for education and training of tribal 
members, a blessing for our infirm or elderly who are now or will be 
able to receive medical care through telemedical services, and a 
critical component in efforts to preserve our cultures and languages. 
This bill win enable tribes to use its programs to improve access to 
all of these critical tools and more.
    Examples abound throughout Indian country of tribes who have 
prioritized the development of a sound telecommunications 
infrastructure. Those same tribes generally are among the most 
successful in carrying out diversified development of all kinds within 
their communities. It is no question that high telephone penetration 
rates and easier access to the internet are hallmarks of healthy 
economies. Most businesses today see high-speed internet access, 
flexible telecommunications technology, and technologically skilled 
employees as absolute necessities. Some reservations have one or two of 
these key commodities in place, but most have none. We must be able to 
provide these services in order to attract a diverse array of 
businesses to Indian country, and we must have these services if 
businesses in Indian country are to achieve long term success.
    The education and training of our tribal members are essential 
ingredients to successful development. We must not only train them to 
be proficient in information technology related fields, we must also 
find ways to provide tribal members with skills for success in all 
sectors of tribal government and economies. E-training and distance 
learning are tailor-made for the unique needs of our communities. We 
have need for skills training and continued education, and most of us 
live in rural communities removed from education centers. Technology to 
access teachers and trainers over the Internet is a critical tool to 
provide our members the opportunity to learn the skills they need to 
find productive employment.
    The same technology can also provide us with an avenue to increase 
dramatically the health and quality of health care for our people. 
Telemedicine is a fast-developing arena of information technology that 
is particularly suited to meeting the needs of our remote and 
underserved reservations. Ailing tribal members often cannot make the 
long trips to IHS clinics or other healthcare facilities far from their 
homes. Small communities, if they were provided with the infrastructure 
and resources to implement such a program, could set up a 
``teleclinic'' where health professionals could address patients and 
provide initial examinations over video conference. These services have 
proven to be very effective for Indian country where currently 
available. National Public Radio documented its success in a report in 
October of last year, noting how both doctors and patients find it far 
more effective than infrequent doctor trips to the reservation or 
costly and difficult trips from reservation to urban areas. I am happy 
to see telemedicine as one of the goals of this legislation.
    IT is also rapidly becoming indispensable in the arena of 
protecting our sacred sites and retaining our native languages. The 
Alaska Native Language Center, the Choctaw Nation of Oklahoma, the 
Cherokee Nation of Oklahoma, Ft. Peck Community Colleges, and others 
provide online resources or even online instruction for students in 
their native languages. After generations of declining use of native 
languages--a vital tie to our traditional culture--we are bringing 
together our elders and our youth on-line to keep our languages alive. 
Vital tools for protecting sacred sites are also becoming increasingly 
reliant on IT. One example is the FCC's Tower Construction Notification 
System, an all-online tool to give tribes information about proposed 
construction of cell phone towers to determine if they are a threat to 
sacred or culturally significant sites. This system not only prevents 
destruction of our sites, but also gives the cell tower industry a 
simple and efficient way to fulfill section 106 of the Historic 
Preservation Act.
    These are only a few examples of the many ways that increased 
access to resources for development of telecommunications 
infrastructure such as those proposed in this measure can help our 
communities in a very tangible manner.
    S. 2382 proposes to set up two grant programs: Block grants for a 
wide-range of telecommunications related activities and training and 
technical assistance grants for employee training and student programs, 
funded at $20 million for the first year. Eligible entities for the 
funding are broad-based as well, to ensure that tribes, tribal 
colleges, and other entities can all work together to deliver the 
benefits of this measure to tribal members.
    The status of tribal telecommunications infrastructure varies 
widely across the Nation. Some tribes include vast areas within their 
jurisdiction that lack basic telephone service or are struggling to 
keep the basic service they have. Other tribes are providing their 
members with high-speed internet services, wireless phones, and are 
exploring next-generation telecommunications technologies. The vast 
majority of tribes fall somewhere in between and are thinking about how 
they can best make the next step toward improved connectivity.
    There is clearly no panacea for meeting the telecommunications 
needs of the tribes-only focused resources with flexibility to meet the 
unique needs of individual tribes can begin to address this dial-tone 
and digital divide in Indian country. With 12 different eligible 
activities plus training and the flexibility to enable any type of 
tribal government, institution, organization, or its partner to use 
these funds, tribes will be able to effectively use their block grants 
to meet the unique needs of their members under this measure.
    This bill would allow eligible entities to use funds to increase 
tribal capacity to exercise regulatory authority by issuing their own 
telecommunications regulations and codes. Through this governmental 
function, tribes are not only delineating their expectations of how 
service should be provided on their reservations, but they are also 
exercising their sovereign right to manage affairs on their own lands. 
As you know, the Cheyenne River Telephone Authority is the first tribal 
telecommunications company, and we have found that we are by far the 
most capable provider on our reservation. We hope that other tribes 
take advantage of the programs that this bill envisions to create their 
own companies that exercise an important aspect of sovereignty in the 
21st Century.
    The ability of tribes to self-determine the best course of action 
for utilizing the funds that would be authorized under this legislation 
coupled with adequate enacted funding levels are vital to the success 
of this bill. Tribes will be eager to access these funds, so funding 
should certainly be set at the level of $20 million at a minimum, and 
all eligible activities should be preserved as this bill moves forward.
    NCAI supports the Native American Connectivity Act. We feel that 
this is a step in the right direction toward increasing the 
availability of telecommunications infrastructure in our communities. 
Of course, more can always be done. Over the course of the last decade, 
telephone service availability in Indian country has increased by 46 
percent, largely due to the concerted push by this committee and the 
committed staff of the Federal Communications Commission. We need to 
keep that trend up, and we know it is possible. The New York Times has 
documented a 130-percent increase in telephone service in just the last 
year for the population of Iraq--an advance lauded as critical to the 
advancement of the Iraqi economy and people, just as it is to ours. We 
know the same can be done in Indian country with a concerted Federal 
commitment.
    The Native American Connectivity Act is a good-faith effort to 
provide our tribes with the resources to grow and strengthen our 
communities. Please accept our endorsement of this legislation, and we 
look forward to working with you to ensure that this important measure 
is passed into law in a timely manner. Thank you for your invitation to 
speak, and I welcome any questions the committee may have.

                                 <all>

</pre></body></html>
